       . ..t',.avI is
     ~..,-              &,p                                                                                   Office of Inspector General 

l :I~                            DEPARTMENT OF HEALTH & HUMAN SERVICES                                        Office of Audit Services 

~    '9'
'C
  "+
     i ­
     '~ua 	                                                                                                   Region VII 

                                                                                                              60 1 East 12th Street 

                          AUG 24 2009                                                                         Room 0429

                                                                                                              Kansas City. Missouri 64 106

                              Report Number: A-07-08-04135

                              Mr. Jay Martinson
                              Executive Vice President, Chief Operating Officer
                              Noridian Administrative Services, LLC
                              900 42 nd Street South
                              P.O . Box 6055 

                              Fargo, North Dakota 58103-2146 


                              Dear Mr. Martinson:

                              Enclosed is the U.S. Department of Health and Human Services (HHS), Office ofInspector
                              General (OIG), final report entitled "Review of High-Dollar Payments for Medicare Part B Claims
                              Processed by Noridian Administrative Services, LLC, for the Period January 1,2003, Through
                              December 31 , 2005 ." We will forward a copy of this report to the HHS action official noted on
                              the following page for review and any action deemed necessary.

                              The HHS action official will make final determination as to actions taken on all matters reported .
                              We request that you respond to this official within 30 days from the date of this letter. Your
                              response should present any comments or additional information that you believe may have a
                              bearing on the final determination.

                              Pursuant to the Freedom of Information Act, 5 U.S .c. § 552, OIG reports generally are made
                              available to the public to the extent that information in the report is not subject to exemptions in
                              the Act. Accordingly, this report will be posted on the Internet at http://oig.hhs.gov.

                              If you have any questions or comments about this report, please do not hesitate to caB me at
                              (816) 426-3591, or contact Debra Keasling, Audit Manager, at (816) 426-3213 or through email at
                              Debra.Keasling@oig.hhs.gov. Please refer to report number A-07-08-04135 in all
                              correspondence.

                                                                             Sincerely,




                              .Enclosure
Page 2 – Mr. Jay Martinson


Direct Reply to HHS Action Official:

Ms. Nanette Foster Reilly
Consortium Administrator
Consortium for Financial Management & Fee for Service Operations
Centers for Medicare & Medicaid Services
601 East 12th Street, Room 235
Kansas City, Missouri 64106
Department of Health and Human Services
             OFFICE OF 

        INSPECTOR GENERAL 





   REVIEW OF HIGH-DOLLAR 

   PAYMENTS FOR MEDICARE 

 PART B CLAIMS PROCESSED BY 

  NORIDIAN ADMINISTRATIVE 

   SERVICES, LLC, FOR THE 

   PERIOD JANUARY 1, 2003,


 THROUGH DECEMBER 31, 2005 





                    Daniel R. Levinson


                     Inspector General 


                       August 2009


                      A-07-08-04135


                    Office of Inspector General
                                      http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance of HHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments of HHS
programs and operations. These assessments help reduce waste, abuse, and mismanagement and
promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
These evaluations focus on preventing fraud, waste, or abuse and promoting economy,
efficiency, and effectiveness of departmental programs. To promote impact, OEI reports also
present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources by
actively coordinating with the Department of Justice and other Federal, State, and local law
enforcement authorities. The investigative efforts of OI often lead to criminal convictions,
administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
for OIG’s internal operations. OCIG represents OIG in all civil and administrative fraud and
abuse cases involving HHS programs, including False Claims Act, program exclusion, and civil
monetary penalty cases. In connection with these cases, OCIG also negotiates and monitors
corporate integrity agreements. OCIG renders advisory opinions, issues compliance program
guidance, publishes fraud alerts, and provides other guidance to the health care industry
concerning the anti-kickback statute and other OIG enforcement authorities.
                             Notices

       THIS REPORT IS AVAILABLE
                       AVAILABLE TO THE PUBLIC
                 at http://oig.hhs.gov

Pursuant to the Freedom of Information Act, 5 U.S.C. ' 552, Office of
Inspector General reports generally are
                                      are made available to the public to
the extent that information in the report
                                   report is not subject to exemptions in
the Act.

 OFFICE OF AUDIT
           AUDIT SERVI
                 SERVICCES FINDINGS AND OPINIONS

The designation of financial or management practices as questiona
                                                              questionab
                                                                       ble, a
recommendation for the disallowance of costs incurred or claimed, and
any other conclusi
           conclusions and recommendatio
                              recommendationsns in this report represent the
findings and opinions of OAS.
                           OAS. Authorized official
                                             officials
                                                     s of the HHS operating
divis
divisiions will make final determination on these matters.
                                  EXECUTIVE SUMMARY



BACKGROUND

Pursuant to Title XVIII of the Social Security Act, the Medicare program provides health
insurance for people age 65 and over and those who are disabled or have permanent kidney
disease. The Centers for Medicare & Medicaid Services (CMS), which administers the program,
contracts with carriers to process and pay Medicare Part B claims submitted by physicians and
medical suppliers (providers). CMS guidance requires providers to bill accurately and to report
units of service as the number of times that a service or procedure was performed.

Carriers currently use the Medicare Multi-Carrier Claims System and CMS’s Common Working
File to process Part B claims. These systems can detect certain improper payments during
prepayment validation.

During our audit period (calendar years (CY) 2003 through 2005), Noridian Administrative
Services, LLC (Noridian), was the Medicare Part B carrier serving Medicare providers in eleven
States. During this period, Noridian processed approximately 193.5 million Part B claims, 1,644
of which had payments of $10,000 or more. We considered these high-dollar claims to be at risk
for overpayment.

OBJECTIVE

Our objective was to determine whether high-dollar Medicare claims that Noridian processed and
paid to Part B providers were appropriate.

SUMMARY OF FINDING

Of the 1,644 high-dollar payments that Noridian made to providers, 1,578 were appropriate.
However, Noridian overpaid providers $708,878 for the remaining 66 payments. Providers
refunded 12 of the overpayments, totaling $139,028, prior to our fieldwork. However, 54
overpayments, totaling $569,850, remained outstanding as of the time of our fieldwork.

Noridian made the overpayments because the providers incorrectly claimed excessive units of
service or used inappropriate procedure codes, or because Noridian applied incorrect payment
rates for procedure codes. In addition, the Medicare claim processing systems did not have
sufficient edits in place during CYs 2003 through 2005 to detect and prevent payments for these
types of erroneous claims.

RECOMMENDATIONS

We recommend that Noridian:

      recover the $569,850 in overpayments,




                                               i
   		 use the results of this audit in its provider education activities, and

   		 identify and recover any additional overpayments made for high-dollar Part B claims paid
       after CY 2005.

AUDITEE COMMENTS AND OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, Noridian partially concurred with our first
recommendation and concurred with our second recommendation, but did not concur with our
third recommendation. Noridian’s comments are included in their entirety as the Appendix.

After reviewing Noridian’s written comments, we maintain that our findings and
recommendations are valid.




                                                  ii
                                                  TABLE OF CONTENTS 


                                                                                                                        Page



INTRODUCTION..............................................................................................................1 


          BACKGROUND .....................................................................................................1         

              Medicare Part B Carriers .............................................................................1 

              Noridian Administrative Services, LLC ......................................................1                         

              “Medically Unlikely” Edits..........................................................................1                 


          OBJECTIVE, SCOPE, AND METHODOLOGY ...................................................2 

               Objective ......................................................................................................2    

               Scope............................................................................................................2   

               Methodology ................................................................................................2        


FINDINGS AND RECOMMENDATIONS ....................................................................3 


          MEDICARE REQUIREMENTS.............................................................................3                       


          INAPPROPRIATE HIGH-DOLLAR PAYMENTS ...............................................3 


          RECOMMENDATIONS.........................................................................................4                 


          AUDITEE COMMENTS.........................................................................................4                


          OFFICE OF INSPECTOR GENERAL RESPONSE ..............................................5 


APPENDIX

          AUDITEE COMMENTS




                                                                   iii
                                               INTRODUCTION



BACKGROUND

Pursuant to Title XVIII of the Social Security Act (the Act), the Medicare program provides
health insurance for people age 65 and over and those who are disabled or have permanent kidney
disease. The Centers for Medicare & Medicaid Services (CMS) administers the program.

Medicare Part B Carriers

Section 1842(a) of the Act authorizes CMS to contract with carriers to process and pay Medicare
Part B claims submitted by physicians and medical suppliers (providers). 1 Carriers also review
provider records to ensure proper payment and assist in applying safeguards against unnecessary
use of services. To process providers’ claims, carriers currently use the Medicare Multi-Carrier
Claims System and CMS’s Common Working File. These systems can detect certain improper
payments during prepayment validation.

CMS guidance requires providers to bill accurately and to report units of service as the number of
times that a service or procedure was performed. During calendar years (CY) 2003 through 2005,
providers nationwide submitted over 2.4 billion Medicare Part B claims to carriers. Of these,
29,022 claims resulted in payments of $10,000 or more (high-dollar payments). We consider such
claims to be at high risk for overpayment.

Noridian Administrative Services, LLC

During our audit period (CYs 2003 through 2005), Noridian Administrative Services, LLC
(Noridian), was the Medicare Part B carrier serving Medicare providers in eleven States. During
this period, Noridian processed approximately 193.5 million Part B claims that had payments of
approximately $16.3 billion. Of these claims, Noridian processed 1,644 Part B claims that had
high-dollar payments.

“Medically Unlikely” Edits

In January 2007, after our audit period, CMS required carriers to implement units-of-service edits
referred to as “medically unlikely edits.” These edits are designed to detect and deny unlikely
Medicare claims on a prepayment basis. According to the “Medicare Program Integrity Manual,”
Publication 100-08, Transmittal 178, Change Request 5402, medically unlikely edits test claim
lines for the same beneficiary, Healthcare Common Procedure Code System code, date of service,
and billing provider against a specified number of units of service. Carriers must deny the entire
claim line when the units of service billed exceed the specified number.




1
 The Medicare Prescription Drug, Improvement, and Modernization Act of 2003, P. L. No. 108-173, which became
effective on October 1, 2005, amended certain sections of the Act, including section 1842(a), to require that Medicare
administrative contractors (MAC) replace carriers and fiscal intermediaries by October 2011.


                                                         1

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether high-dollar Medicare claims that Noridian processed and
paid to Part B providers were appropriate.

Scope

We reviewed the 1,644 high-dollar claims, totaling $29,029,150, that Noridian processed during
CYs 2003 through 2005.

We limited our review of Noridian’s internal controls to those applicable to the 1,644 claims
because our objective did not require an understanding of all internal controls over the submission
and processing of claims. Our review allowed us to establish reasonable assurance of the
authenticity and accuracy of the data obtained from the National Claims History file, but we did
not assess the completeness of the file.

We conducted fieldwork from July 2007 through April 2009. Our fieldwork included contacting
Noridian, located in Fargo, North Dakota, and the providers that received the payments for the
high-dollar claims.

Methodology

To accomplish our objective, we:

       reviewed applicable Medicare laws, regulations, and guidance;

       used CMS’s National Claims History file to identify Medicare Part B claims with high-
        dollar payments;

       reviewed available Common Working File claim histories for claims with high-dollar
        payments to determine whether the claims had been canceled and superseded by revised
        claims or whether payments remained outstanding at the time of our fieldwork;

       coordinated our claim review with Noridian, and provided Noridian with the details (as
        discussed below) of the 54 claims totaling $569,850 in overpayments;

       contacted providers to determine whether the high-dollar claims were billed correctly; and

       obtained documentation from the providers confirming all correct claims identified.

We conducted this performance audit in accordance with generally accepted government auditing
standards. Those standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and conclusions based on our



                                                2

audit objectives. We believe that the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objective.

                          FINDINGS AND RECOMMENDATIONS

Of the 1,644 high-dollar payments that Noridian made to providers, 1,578 were appropriate.
However, Noridian overpaid providers $708,878 for the remaining 66 payments. Providers
refunded 12 of the overpayments, totaling $139,028, prior to our fieldwork. However, 54
overpayments, totaling $569,850, remained outstanding as of the time of our fieldwork.

Noridian made the overpayments because the providers incorrectly claimed excessive units of
service or used inappropriate procedure codes, or because Noridian applied incorrect payment
rates for procedure codes. In addition, the Medicare claim processing systems did not have
sufficient edits in place during CYs 2003 through 2005 to detect and prevent payments for these
types of erroneous claims.

MEDICARE REQUIREMENTS

The CMS “Carriers Manual,” Publication 14, part II, section 5261.1, requires that carriers
accurately process claims in accordance with Medicare laws, regulations, and instructions. Section
5261.3 of the manual requires carriers to effectively and continually analyze “. . . data that
identifies aberrancies, emerging trends and areas of potential abuse, overutilization or
inappropriate care, and . . . areas where the trust fund is most at risk, i.e., highest volume and/or
highest dollar codes.”

INAPPROPRIATE HIGH-DOLLAR PAYMENTS

For several of the overpayments, providers incorrectly billed Noridian for excessive units of
service. As examples:

     		 One provider billed 80 units of service when it should have billed 8 units, resulting in an
         overpayment of $23,381.

     		 One provider billed 60 units of service when it should have billed 6 units, resulting in an
         overpayment of $19,696.

     		 One provider billed 501 units of service when it should have billed 50 units, resulting in
         an overpayment of $19,239.

     		 One provider billed 60 units of service when it should have billed 6 units, resulting in an
         overpayment of $18,458.

Additional overpayments occurred when providers used inappropriate procedure codes, and when
Noridian applied incorrect payment rates for procedure codes. As examples:




                                                 3

      		 One provider billed 11 units of procedure code J9268 when it should have billed 11 units
          of procedure code J9265, resulting in an overpayment of $13,253.

      		 One provider billed 1 unit of procedure code G0345 and 12 units of procedure code
          J9266 instead of 1 unit of procedure code G0349 and 13 units of procedure code J9265,
          resulting in an overpayment of $12,237.

      		 Noridian reimbursed one provider at the billed amount, instead of reimbursing at the
          allowable amount for procedure code A0435, resulting in an overpayment of $17,638.

      		 Noridian reimbursed one other provider at the billed amount, instead of reimbursing at
          the allowable amount for procedure code A0435, resulting in an overpayment of $15,659.

Providers attributed the submission of claims with incorrect units of service or procedure codes to
clerical errors made by their billing staffs. In addition, during CYs 2003 through 2005, the
Medicare Multi-Carrier Claims System and the CMS Common Working File did not have
sufficient prepayment controls to detect and prevent inappropriate payments resulting from claims
for excessive units of service. Instead, CMS relied on providers to notify carriers of
overpayments and on beneficiaries to review their “Medicare Summary Notice” and disclose any
provider overpayments. 2

RECOMMENDATIONS

We recommend that Noridian:

    		 recover the $569,850 in overpayments,

    		 use the results of this audit in its provider education activities, and

    		 identify and recover any additional overpayments made for high-dollar Part B claims paid
        after CY 2005.

AUDITEE COMMENTS

In written comments on our draft report, Noridian partially concurred with our first
recommendation and concurred with our second recommendation, but did not concur with our
third recommendation. With respect to our first recommendation, Noridian concurred that the
$569,850 in overpayments should be collected, and described corrective actions taken to date.
However, Noridian added that of the eight claims left to collect, two “. . . are outside of the
reopening timeliness regulations for contractors.”



2
 The carrier sends a “Medicare Summary Notice” to the beneficiary after the provider files a claim for Part B
service(s). The notice explains the service(s) billed, the approved amount, the Medicare payment, and the amount due
from the beneficiary.


                                                        4

Noridian concurred with our second recommendation and described corrective actions in progress.
Noridian did not, however, concur with our third recommendation. Noridian cited resource
constraints, as it estimated that “. . . the number of high dollar claims that would be included in
this request would exceed 12,000 claims.” Noridian also provided details on its ongoing medical
review and data analysis procedures, and added that “. . . this recommendation . . . does not fit
with the CMS emphasis for the MACs and carriers to focus medical review efforts on prepay
claims review.”

Noridian’s comments are included in their entirety as the Appendix.

OFFICE OF INSPECTOR GENERAL RESPONSE

After reviewing Noridian’s written comments, we maintain that our findings and
recommendations are valid. With respect to our first recommendation, we disagree with
Noridian’s statement that two of the remaining uncollected claims are outside of the reopening
timeliness regulations for contractors. 42 CFR § 405.980(b) states: “A contractor may reopen
and revise its initial determination or redetermination on its own motion. . . . (3) [a]t any time if
there exists reliable evidence as defined in §405.902 that the initial determination was procured by
fraud or similar fault as defined in §405.902.” The term “similar fault” means “to . . . receive
Medicare funds to which a person knows or should reasonably be expected to know that he or she
. . . is not legally entitled.” (Emphasis added.) Therefore we continue to support our first
recommendation.

With respect to our third recommendation, we did not intend it to mean that Noridian should
conduct a medical review of all high-dollar claims paid after CY 2005, given the fact that only
four percent of the claims we reviewed were found to be in error. However, it would be an
effective and efficient use of Noridian’s medical review resources to analyze the detail data we
provided for the 66 claims that were in error, to identify patterns or types of errors in those
claims. Noridian could then apply that information to identify any overpayments in high-dollar
claims paid after CY 2005. These efforts would take advantage of Noridian’s existing medical
review structure and would not undermine CMS’s emphasis on prepay claims review.




                                                 5

APPENDIX 

                                                                                                        APPENDIX
                                                                                                         Page 1 of 2




~
--=
NOR/O/AN ·
                                                                                   ---
                                                                                   P. uIO'
                                                                                   P.ul
                                                                                   VaP_
                                                                                        O' Donnell
                                                                                   VicMP_
                                                                                   ",-..,.~

                                                                                   901 .u'
                                                                                       ~ _

                                                                                   fargo.
                                                                                           Don ...11




                                                                                   (701) 282-2..0,
                                                                                         282·2..0,
                                                                                   FAX (7(1)
                                                                                                  Scdh, s.M,
                                                                                                  Sault\,
                                                                                                58108-2108
                                                                                   Far ..... NO S8108-2108

                                                                                        (7(11) 2n.S1SO
                                                                                                          5uiMo 1




                                                                                   pauI.odonneIOnor'dan ..,....
                                                                                   PWI.<:>doMtIOI\Ol'klwl.can


   June   30, 2009

   Patrick J. Cogley
   Office of Inspector General
   Region VII
   601 East 12th Street
   Room 0429
   Kansas City,
   KansasC      MO 64106
            ity,MQ   64 106

   RE: Report        A -07-{)8·04135
       Repor1 Number A·07-{)8·04135

   Dear Mr. Cogley:

   Thank you for the opportunity
                     oppon unily 10to respond to the draft report
                                                           rcpon of the Office of Inspector General
   (OIG) dated June
               J une 4, 2009 entitled.
                             entitled, "Review of
                                                o f High-Dollar Payments for Medicare PanPart B
   Claims Processed by Noridian Administrative Services, LLC, for the Period January 1,
                                                              forthe                 I, 2003,
                                                                                        2003.
   Through December 31, 2005."
                    31,2005."

        fu ll y understand the importance
   We fully                    imponance of
                                          o f clai ms payment accuracy. and although just 44%
                                              claims                                        % of the
   claims
   clai ms wen:
             were found [0
                         to be overpayrncms,
                               overpaymems. we agree that overpayments need to be collected as
   aggressively as possible.

   As n:quested
      requested in your letter,
                        kUer, here are our responses to the three recommendations that were
                                                                                       wen:
   made:

                                that the $569,850 in overpayments on 66 c laims be recovered.
          D IG has recomme nded Ihal
   A. The O

           a. We concur that Ihe    ovcrpayments should be colleclcd.
                                the overpayments                collccted.
           b. We havc
                   have recovered payment in full on 51  5 I of the claims.
           c. We have
                   havc transitioned 7 claims to thc
                                                   the appropriate MAC contractors
                                                                            contrllctOI"$ since NAS is no
               longcr
               longer responsible for the States
                                           stales in question.
                                                     question .
           d . We have 8 claims left to collect. We have sent demand letters for 6 of the c lai
           d.                                                                                         ms and
                                                                                                   laims
               an:
               are awai ting collections. The two remaini       claims an:
                                                            ng daims
                                                    remaining           are outside of the reopening
                                  ion~ for contractors (Internet Only Manual Chapter 3,
               timeliness regulat ions                                                      3. Sections 70
               and 80).




                                                                                                        -
                                                                                                       APPENDIX
                                                                                                        Page 2 of 2 





B. The DIG has recomme nded dUll    thai NAS u~use the results
                                                        resu lls of this
                                                                    thi s audit in provider education
   act ivities.
        a. We concur with Ihe  the nced for education.
        b, An educational anicle ha.~
        b.                            ha~ been prepared and is in thc  the editing slage
                                                                                    stage with the intent of
             publishing in the JJuly
                                 uly provider education bulletin.
        c. Messages were sent on June 30.    30, 2009 to providers who participate in the NAS
                        E-mail List di~tribution with educational information on: Billi ng Un its
             Medicare E·mail
             ColTeClIy.                       ideli nes and Ame nd
             Correctly, Documentation Gu idelines                 nding
                                                                      ing Documentation Guidel ines.
        d. Related to education, an  aB article was published in the October 2008 prov    provider
                                                                                              ider bulletin
             giving  instruction on CMS publicat ion of "Medical Un likely Edits."
             giv iBg iBstrnction                                                                      closely
                                                                                   Edits," which are closcly
             related to many of the inappropriate claims payments in this repon.



C.                  rtcommellded lhat
C . The 010 has recommended           that NAS identify and recover any additional overpayments for
    high-dollar Pan B claims
                         clai ms paid after CY 2005.
       a. We do not concur with th is rooommendatioB.
       a.                                     rocommendation.
                  e.~timate in terms the Bumber
       b. Our estimate                      number of high doUar
                                                               dollar claims
                                                                      clai ms that would be iBcluded
                                                                                             inc luded in thi
                                                                                                           thiss
            request would exceed 12.000 claims. This nu          number
                                                                   mber of claims   could
                                                                            c laims cou ld consume
            approximately 80% our medical review resources for a year's worth of funding.
            approllimately                                                                     funding. We
                           sufficiel'll resources, panicu
            do not have sufficient                          illfly with the BUrse
                                                    panicularly             nurse reviewers,
                                                                                   reviewers. to be able 10
                                                                                                          10
            add this
                 thi s worlcload
                       workload without add      itional funding.
                                             additioBal  fund ing.
       c. Our med      ical review siaff
                  medical            staff performs revi
                                                      reviews
                                                           ews o n claims that are identified by various
                             analysis
            means o f data anal    ysis and is wri tten into
                                                         inlo our Medical Review Strategy. However.
                                                                                                  However,
            we will be adding the results of this draft repon to the data sources in delermi determinini ng
            fu ture medical review IBrgets
            future                      targets in our strategy.
       d.              ooncern we have on this recommendation is that it does not fit with lile
       d. Another concern                                                                            the CMS
           eem  pha.~is for the MACs and carriers 10
              mphasis                                                       rev iew effon~
                                                        to focus medical review     effon.~ on prepay claims
            review. We recommend thai     that the newly assigned Recovery Audit Contractors (RACs)   ( RACs)
            and Program Safeguard Contractors (PSCs) pursue this postpay claims rev                iew since il
                                                                                               review          it
            ties more closely    to their scopes of work.
                        close ly 10

Plea.o;e         addi tional information is needed or if funhc:r
Please advise if additional                              funher clarification is needed on
                                                                                        o n any of
our responses.

Sincerely,


;£O/L-
Pau l O'Donneli
      O'Donnell
Vice President
Noridian Adm inisuative
              inistrative Services.
                          Services, LLC




                                                                                                        -
